                      N    [ONAL SCIENCE FOUNDATION
                          WASHINGTON, D.C. 20550




    Office of
Inspector General



MEMORANDUM
      DATE:   Jul
      FROM                               t      .--
                                                  ..-A   ~




      VIA :                           gent-in-Charge
  Q
 SUBJECT:     Possible Conflict of Interest by Division Director

       TO:    Case No. I92010001




                                   -
In January, 1992 we received an allegation from a confidential
source that Dr.                    Director of the Division of
                       and a professional photographer, was taking
            for later resale while on official business. Dr.
       allegedly also failed to disclose a conflict of interest




-
with                 1, which financed his exhibits.
We talked with Dr.         previous supervisor, Dr.          m-4
who told us that            was an excellent employee, and that he
was not aware of any problems regarding Dr.                 We also
reviewed Dr.          conflicts of interest file in the Office of
General Couns-e        ~         r did note. in his file that he had
received income from the sale of photographs,
                                  -     --- -    he had not recused
himself from matters involving
We interviewed Dr.   bpC  on July 14, 1993, and asked him about any
affiliation with or enefit derived b him f       r     o     m Dr.
       stated that, in 1989, t   h   e   e gallery received a grant
from               for photography exhibits. He stated that though
he
 yn-w                  photographers invited by the gallery to
participate, he received no financial benefit from               He
there was no contact between him and    3.P
further stated that he has sold photo ra hs at exhibits, but that
                                            at that time nor since.
Regarding the taking of photographs during work hours, Dr.
denied ever doing so, and stated that he had taken photographs
while on travel for NSF, but all were taken either in the evenings
or on weekends.
As no violations were found, this case is closed.
